               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     W.F. Bolger Center for Leadership
               Development

                       Audit Report




                                          September 24, 2013

Report Number HR-AR-13-007
                                                                  September 24, 2013

                                                W.F. Bolger Center for Leadership
                                                                     Development

                                                      Report Number HR-AR-13-007



BACKGROUND:
The W.F. Bolger Center for Leadership      Postal Service events at the Bolger
Development (Bolger Center) is a U.S.      Center, instead of using an outside hotel
Postal Service-owned hotel and             and conference center. In addition, the
conference center located in Potomac,      contractor leases the excess capacity to
MD. The facility was purchased in 1980     external customers with the intent to
for use as an employee training center.    offset the costs of operating the facility.
During fiscal year (FY) 2004, the Postal   The contractor implemented marketing
Service contracted a hospitality           strategies to solicit external business,
management company to operate,             including government agencies,
maintain, and market the facility to       corporations, and private parties.
external customers to offset operating
costs. Today, the Bolger Center            However, management did not allocate
accommodates meetings and                  all operating costs between internal and
conferences for private and government     external customers, making financial
organizations and social events for the    planning decisions difficult. Also,
general public. From FYs 2010 through      management has not conducted a
2012, external business accounted for      formal audit of the contractor’s financial
85 percent of the contractor-reported      records as required since the contract
total revenue of about $51.1 million and   was initiated. Finally, management
77 percent of the occupied rooms.          received contractor payments by paper
                                           check rather than electronically. As a
Our objective was to evaluate the Postal   result, we identified about $6.7 million
Service’s business case to operate the     as revenue at risk. As a result of our
Bolger Center.                             audit, management implemented an
                                           electronic payment process; therefore,
WHAT THE OIG FOUND:                        we did not make a recommendation on
The Postal Service has a valid business    that issue.
case to operate the Bolger Center.
Management uses the facility as a low-     WHAT THE OIG RECOMMENDED:
cost alternative to accommodate Postal     We recommended management
Service events, and the facility is home   establish a method to allocate all Bolger
to the U.S. Postal Inspection Service      Center operating costs between internal
Career Development Division. Although      and external customers, and conduct a
the Postal Service reported a loss for     formal audit of the contractor’s financial
the facility of about $3.5 million in      records annually.
FY 2012, it saved about $4.5 million in    Link to review the entire report
hotel and meal costs by conducting
September 24, 2013

MEMORANDUM FOR:            JEFFREY C. WILLIAMSON
                           CHIEF HUMAN RESOURCES OFFICER AND EXECUTIVE
                           VICE PRESIDENT




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – W.F. Bolger Center for Leadership
                           Development (Report Number HR-AR-13-007)

This report presents the results of our audit of the W.F. Bolger Center for Leadership
Development (Project Number 13YG014HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director, Human
Resources and Support, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
W.F. Bolger Center for Leadership Development                                                                      HR-AR-13-007



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Business Case ................................................................................................................ 2

Allocation of Operating Costs .......................................................................................... 3

Annual Financial Audit Requirement ............................................................................... 4

Payments Received By Paper Check.............................................................................. 4

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 8

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Other Impact ............................................................................................... 9

Appendix C: Management’s Comments ........................................................................ 10
W.F. Bolger Center for Leadership Development                                 HR-AR-13-007



Introduction

This report presents the results of our self-initiated audit of the U.S. Postal Service's
W.F. Bolger Center for Leadership Development (Project Number 13YG014HR000).
Our objective was to evaluate the Postal Service’s business case to operate the Bolger
Center. See Appendix A for additional information about this audit.

The Postal Service purchased the W.F. Bolger Center for Leadership Development
(Bolger Center) in 1980 for use as a national executive management and leadership
training center, see Figure 1. Since the center's inception, Postal Service employees
have used the Bolger Center to attend courses, meetings, and conferences. During
fiscal year (FY) 2004, Postal Service management changed the Bolger Center’s
business model to operate as a hotel and conference center. Management’s objectives
were to increase the usage of the facility, increase profitability to a level of self-
sufficiency, improve operations through cost controls, and maintain high levels of
customer satisfaction. The Postal Service contracted a hospitality management
company (contractor) to operate, maintain, and market the facility to external customers
to offset operating costs. Today, the Bolger Center accommodates meetings and
conferences for Postal Service employees and private and government organizations.
In addition, the contractor markets the facility to the general public for social events.

                Figure 1: W.F. Bolger Center for Leadership Development




     Source: Postal Service.

During FY 2012, the contractor reported that revenue from internal business totaled
about $3.8 million and that revenue from external business totaled $14.3 million
(79 percent). In addition, it reported that hotel occupancy from internal business totaled
26,094 customers and that occupancy from external business totaled 55,990
(68 percent). Overall, from FYs 2010 through 2012, the contractor reported that external
business accounted for 85 percent of the total revenue of about $51.1 million and 77
percent of the occupied rooms. See Table 1 for contractor-reported internal and external
customer revenue and occupancy for FYs 2010 through 2012.



                                                1
W.F. Bolger Center for Leadership Development                                                             HR-AR-13-007




              Table 1: Internal and External Customer Revenue and Occupancy

                          Revenue                                                     Occupancy




Source: Contractor.


Conclusion

The Postal Service has a valid business case to operate the Bolger Center.
Management uses the facility as a low-cost alternative to accommodate Postal Service
and U.S. Postal Inspection Service events. In addition, the contractor leases the excess
capacity to external customers with the intent to offset costs of operating the facility. The
contractor consistently develops and implements marketing strategies to solicit business
from external entities, including government agencies, corporations, and private parties.
However, we identified opportunities to improve financial controls and increase the
security and transparency of select business processes. Specifically, management did
not allocate all operating costs between internal and external customers. Additionally,
management had not conducted formal annual audits of the contractor’s financial
information, as required. Further, the Postal Service received payments from the
contractor for hotel and conference activities by paper check. Consequently, we
identified about $6.7 million as revenue at risk.

Business Case

The Postal Service has a valid business case to operate the Bolger Center. In FY 2012,
32,854 Postal Service employees used the Bolger Center, which represented 26,094
hotel rooms and 6,760 1-day guests. The Postal Service's total cost to operate the
Bolger Center for that same period was just over $5.5 million. Net revenue from
meetings and conferences for private and government organizations, which offset the
center's operating costs, was about $2 million.1 If the Bolger Center did not exist and the
Postal Service had to conduct conference activities at an outside facility, it would have

1
    The contractor subtracts its cost from the revenue and forwards the net profit to the Postal Service monthly.


                                                             2
W.F. Bolger Center for Leadership Development                                                         HR-AR-13-007



incurred about $8.2 million in hotel and meal costs. As a result, although the Postal
Service reported a loss for the facility of about $3.5 million in FY 2012, it saved about
$4.5 million in hotel and meal costs by conducting Postal Service events at the Bolger
Center, instead of using an outside hotel and conference center. Further, by having
direct access to the Bolger Center, the Postal Service is guaranteed flexibility and a
dedicated facility to host and accommodate future events in a cost-effective manner.
Also, it can enhance the training environment by controlling negative factors that could
impede learning.

In addition, the facility is home to the Postal Inspection Service's Career Development
Division and includes the Postal Service’s largest functioning media studio. Both these
items require specific and unique space requirements.

Allocation of Operating Costs

Management did not allocate all operating costs2 between internal and external
customers3 who use the Bolger Center; therefore, we could not determine whether the
revenue generated for services provided to external customers covered all their
associated costs. Specifically, the Postal Service does not allocate to external
customers their portion of the operating costs that cannot be directly associated with the
product or service being offered to customers; instead, these costs are directly attributed
to the Postal Service.

The Postal Accountability and Enhancement Act (PAEA) of 2006, requires the Postal
Regulatory Commission (PRC) to submit a report to the President and Congress at
least every 5 years, to include how well the Bolger Center is operating in accordance
with PAEA requirements, and to recommend measures to improve the effectiveness
and efficiency of postal laws. The PRC report4 mentioned that the training facilities and
related services,5 as a competitive nonpostal service product,6 could be offered to the
public under the condition the facilities cover their attributable costs7 for external
customers. However, the Postal Service or other federal agency employees' activities at
the facilities cannot be included in this requirement.

Management stated it is difficult to separate and allocate operating costs, such as
utilities, engineering, and grounds maintenance between internal and external
customers because these items are used by everyone. In addition, they stated it would
be costly to implement a new accounting system to separate and track the expenses.



2
  Includes costs, such as utilities, maintenance, and repairs.
3
  External customers are individuals other than Postal Service or other federal agencies employees.
4
  Section 701 Report, Analysis of the Postal Service Accountability and Enhancement Act of 2006, dated
September 22, 2011.
5
  Training facilities and related services includes the rental of excess space in or on the grounds of the Postal
Service's training facilities to outside parties.
6
  Competitive products are a category of Postal Service products and services for which similar products and services
are offered by private sector carriers. A nonpostal service is a service not directly related to the delivery of mail.
7
  "Direct and indirect postal costs attributable to such product through reliably identified causal relationships."


                                                          3
W.F. Bolger Center for Leadership Development                                                         HR-AR-13-007



However, we noted generally accepted accounting practices exist, such as the direct
method8 or activity based costing,9 which could be used to allocate those costs.

By not allocating all operating costs, the Postal Service is unable to determine whether
the revenue generated from external customers offsets the cost of the services provided
by the Bolger Center, as required.

Annual Financial Audit Requirement

Management had not conducted an annual audit of the contractor’s financial records, as
required,10 since the contract was initiated in December 2003. While management
performed a monthly review of the financial information provided by the contractor to
detect unusual transactions, we found no evidence of a formal audit.

According to the contract, “the Postal Service conducts a minimum of one formal audit
annually” and makes recommendations to address any identified deficiencies. It also
states the contractor’s financial records must be retained for 3 years after the final
payment and may be audited by the Postal Service at any time during regular
workhours; however, the contract does not specify the type of audit required.
Management stated they were unaware of any formal annual financial audits being
performed.

From FYs 2010 through 2012, the contractor reported a steadily increasing net income
totaling about $2.2 million. However, without a formal audit of the contractor’s financial
records, the Postal Service cannot effectively address discrepancies in a timely manner
and assess the accuracy of the reported financial information. This control weakness
increases the risk of fraud and revenue loss.

Payments Received By Paper Check

The Postal Service received payments from the contractor for hotel and conference
activities at the Bolger Center by paper check rather than electronically. With varying
amounts each month, the contractor hand delivers a check directly to Postal Service
management who forwards it via Express Mail®11 to the Postal Service's Accounting
Services in Eagan, MN, for deposit. The Postal Service incurs a cost of about $19 per
transaction using this process.

According to a leading accounts payable automation company on payments,12 paper
checks were the most susceptible to fraud, and electronic funds transfer (EFT) credits
were the most secure and cost effective method of payment. Also, the Financial

8
  The direct method uses a single cost driver to determine overhead costs. A cost driver is any activity in a business
used to determine cost. Examples of cost drivers are labor hours or machine hours.
9
  Activity based costing is a cost accounting approach concerned with matching costs with activities (called cost
drivers) that cause those costs.
10
   Contract No. 2DPSCM-04-P-1337, Attachment 1 - Performance Work Statement, Section 4 – Financial Information.
11                                      ®
   Effective July 28, 2013, Express Mail will be called Priority Mail Express.
12
   Facta Vera LTD is a North American leader in accounts payable automation enabling technologies.


                                                          4
W.F. Bolger Center for Leadership Development                                              HR-AR-13-007



Management Service Bureau,13 points out "EFT is safe, efficient, and less expensive
than paper check payments." See Table 2 for the hierarchy of payment methods subject
to fraud.

                          Table 2: Payment Methods Subject to Fraud

                                                                                Percentage of
                           Payment Method                                           Fraud
            Checks                                                                        94%
            Automated Clearing House (ACH)14 Debits                                       34%
            Consumer Credit or Debit Cards                                                13%
            Corporate Purchasing Cards                                                    10%
            ACH Credits                                                                    1%
            Wire Transfers                                                                 1%
          Source: Facta Vera LTD.

Management stated when the contract was initiated in December 2003, EFT was not a
common practice. If management implemented an EFT process to replace their current
practice of accepting the monthly paper payment from the contractor, they would incur a
cost of about 11 cents, which represents a savings of about $18.89 monthly per
transaction. Although this is not significant and only affects 12 transactions annually,
this would decrease costs, increase efficiency and transparency, and significantly
reduce the risk of fraud. During the audit, management implemented an EFT process
between the Postal Service and the contractor’s financial accounts; therefore, we are
not making a recommendation.

We estimated about $6.7 million over a 4-year period as revenue at risk15 associated
with the checks that are manually mailed to the Eagan Accounting Services for deposit.
See Appendix B for our calculation.

Recommendations

We recommend the chief human resources officer and executive vice president direct
the manager, Leadership Development and Talent Management to:

1. Establish an accounting methodology to allocate all W.F. Bolger Center for
   Leadership Development operating costs between internal and external customers.

2. Conduct at least one formal audit of the contractor’s financial records annually.




13
   The Financial Management Service is a bureau of the U.S. Department of the Treasury.
14
   ACH payments are electronic payments made through the ACH.
15
   Revenue the Postal Service is at risk of losing.


                                                        5
W.F. Bolger Center for Leadership Development                                  HR-AR-13-007



Management’s Comments

Management agreed with the findings and recommendations to establish an accounting
methodology to allocate all W.F. Bolger Center for Leadership Development operating
costs between internal and external customers and to conduct at least one formal audit
of the contractor’s financial records annually. They plan to complete these actions by
December 31, 2013. However, management did not agree with the other impact16
stated in the report. They stated the check is hand carried from the supplier to Postal
Service management, and they have the ability to closely track and trace the Express
Mail® package when the check is forwarded to the Accounting Services Center in
Eagan, MN. Further, they mentioned a 10 year history of this process without loss. See
Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report. Management clarified the contractor is located in the
same facility as the Postal Service and the check is hand carried by the contractor to
Postal Service management. We revised verbiage in that section of the report to reflect
that clarification. Regarding other impact, we acknowledge the controls already in place
and the long history of no loss. However, we maintain that manual processes are more
susceptible to loss. A leading accounts payable automation company and the Financial
Management Service Bureau both point out that checks are highly susceptible to fraud,
and EFT are safer and less expensive than paper checks.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




16
     Management referred to this as monetary impacts.


                                                        6
W.F. Bolger Center for Leadership Development                                                        HR-AR-13-007



                                 Appendix A: Additional Information

Background

The Bolger Center is a Postal Service-owned hotel and conference center located in
Potomac, MD. The Postal Service purchased the facility in 1980 with the intent to use
the property as an employee training center. The facility is on 83 acres and features 430
guest rooms and suites, 75 meeting rooms, which can accommodate groups of five to
500 people, 70,000 square feet of high-technology meeting space and the Postal
Service’s largest functioning media studio. In addition, the Bolger Center is home to the
Postal Inspection Service Career Development Division, which provides training to both
new and mid-career inspectors and postal police officers. Furthermore, the Postal
Inspection Service leases its training facility to external law enforcement agencies.

During FY 2004, management changed the business model of the Bolger Center.
Management’s objectives were to increase the use of the facility, increase profitability to
a level of self-sufficiency, improve operations through cost controls, and maintain high
levels of customer satisfaction. To accomplish these objectives, the Postal Service
engaged a contractor to operate, maintain, and market the facility to external customers,
such as private companies and government agencies. In addition, the contractor began
marketing the facility to the general public to provide hotel and conference services for
social events, such as weddings. For example, the general public can find the Bolger
Center on popular online travel and social networking sites, such as Hotels.com and
Facebook. The Bolger Center is primarily staffed by the contractor’s personnel while the
Postal Service maintains some employees onsite for administrative purposes.

On December 20, 2006, President George W. Bush signed the PAEA. The PAEA was
the first broad revision of the 1970 statute that replaced the U.S. Post Office with the
U.S. Postal Service, a self-supporting, independent agency of the executive branch.
One of the major changes of the PAEA was to restrict the Postal Service's authority to
provide nonpostal services. The PRC was assigned as the oversight entity to ensure
compliance. In a report published in 2011, the PRC ruled the training facilities and
related services, which fall under the competitive nonpostal service category, could
continue to be offered under the condition they cover their attributable costs for external
customers.

Recently, management completed an overall review of the Bolger Center and noted
over the past 10 years they have increased usage and profitability, and improved the
bottom line of operations while maintaining a high level of satisfaction.17 According to
management, external business contributes about 80 percent of the facility’s annual
occupancy. Management believes the growth of external business has allowed them to
support and protect one of the organization’s key learning environments. Management
concluded they should continue operations at the Bolger Center based on the facility’s


17
  Each month, the contractor provides customer satisfaction survey results. The April 2013 results showed a year-to-
date satisfaction percentage totaling 89.6 percent.


                                                         7
W.F. Bolger Center for Leadership Development                                    HR-AR-13-007



self-sufficiency, profitability, and ability to accommodate the training needs of Postal
Service, Postal Inspection Service, and postal police employees.

Objective, Scope, and Methodology

The objective of our audit was to evaluate the Postal Service’s business case for
operating the Bolger Center. To accomplish this objective, we:

   Interviewed Postal Service personnel at the Bolger Center and Postal Service
    Headquarters.

   Obtained and reviewed the Bolger Center’s financial information from FYs 2010
    through 2012 to evaluate the center’s profitability.

   Obtained and reviewed monthly operations reports provided by the contractor.

   Reviewed the Postal Service’s current process for receiving payments from the
    contractor for hotel and conference activities and researched the benefits of
    implementing an EFT process.

   Reviewed PRC rulings relating to competitive nonpostal services.

   Researched the feasibility of allocating expenses between Postal Service and
    external customers.

We conducted this performance audit from January through September 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 22, 2013, and included their
comments where appropriate.

We assessed the reliability of Bolger Center financial data by validating select data to
financial information provided by the contractor and interviewing Postal Service
management knowledgeable of the data. We determined that the data were sufficiently
reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                                8
W.F. Bolger Center for Leadership Development                                      HR-AR-13-007




                                            Appendix B: Other Impact

          Recommendation                                     Impact Category     Amount
              Finding                                        Revenue at Risk18   $6,728,345

We estimated revenue at risk as follows:

      We obtained the contractor’s actual reported net income for FYs 2011 and 2012 of
       $1,922,465.

      We input that information into a forecasting tool to estimate net income for FYs 2013
       and 2014.

      We combined the actual and forecasted net income to calculate the total estimated
       revenue at risk of loss due to the Postal Service’s current process of receiving
       payments from the contractor for hotel and conference activities at the Bolger Center
       by paper check rather than electronically.




18
     Revenue that the Postal Service is at risk of losing.


                                                                9
W.F. Bolger Center for Leadership Development                 HR-AR-13-007



                          Appendix C: Management’s Comments




                                                10
W.F. Bolger Center for Leadership Development        HR-AR-13-007




                                                11
